HHS/OIG, Audit -"Los Angeles County's Efforts to Account for the Use of Bioterrorism Hospital Preparedness Program Funds and Monitoring of Subrecipients,"(A-09-03-01021)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Los Angeles County's Efforts to Account for the Use of Bioterrorism Hospital Preparedness Program Funds and Monitoring
of Subrecipients," (A-09-03-01021)
October 1, 2003
Complete
Text of Report is available in PDF format (547 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether the Los Angeles County Department of Health
Services (LA County):  (i) properly recorded, summarized and reported bioterrorism preparedness transactions in accordance
with the terms and conditions of the cooperative agreement, (ii) established controls and procedures to monitor subrecipient
expenditures of Health Resources and Services Administration funds; and (iii) used Bioterrorism Hospital Preparedness Program
(Program) funds to supplant funds previously provided by other sources.  We determined that LA County:  (i) generally
accounted for Program funds in accordance with the terms and conditions of the cooperative agreement and applicable departmental
regulations and guidelines, (ii) had not started to monitor subrecipient activities or made any site visits because the
hospital agreements had been in place only a few months; and (iii) had not used Program funding to supplant existing State
or local funds.  We recommended that LA County implement the monitoring procedures as planned.  LA County concurred
with the conclusions of our report.